     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




    ANP District Headquarters Facilities in Helmand and
     Kandahar Provinces Have Significant Construction
      Deficiencies Due to Lack of Oversight and Poor
                  Contractor Performance




                                        October 27, 2010




SIGAR Audit-11-3 Contractor Performance and Oversight /Security
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


October 27, 2010

Lieutenant General James Mattis
Commander, U.S. Central Command
General David Petraeus
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force
Lieutenant General Robert L. Van Antwerp
U.S. Army Chief of Engineers and
   Commanding General of the U.S. Army Corps of Engineers
Lieutenant General William B. Caldwell, IV
Commanding General, NATO Training Mission-Afghanistan/
   Combined Security Transition Command-Afghanistan
This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) review of a contract for the construction of six Afghanistan National Police
district headquarters facilities in Helmand and Kandahar Provinces funded by the Combined Security
Transition Command-Afghanistan and implemented by the U.S. Army Corps of Engineers (USACE). Based
on the construction deficiencies identified by SIGAR, this report recommends that USACE evaluate the
full range of facility repairs needed at the six project sites. This report includes an additional five
recommendations designed to help USACE recoup costs from the contractor, as necessary, and prevent
payment and performance problems on future construction projects.

A summary of this report is on page ii. This performance audit was conducted by the Office of the
Special Inspector General for Afghanistan Reconstruction under the authority of Public Law No. 110-181
and the Inspector General Act of 1978, as amended.




John Brummet
Assistant Inspector General for Audits
Office of the Special Inspector General
  for Afghanistan Reconstruction




SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                   Page i
                    SIGAR
                                                            SIGAR Audit-11-3                                            October 2010
                                                            ANP District Headquarters Facilities In Helmand and
                                                            Kandahar Provinces Have Significant Deficiencies Due to
                                                            Lack of Oversight and Poor Contractor Performance
      SpecialInspectorGeneralforAfghanistanReconstruction
What SIGAR Reviewed
One objective of coalition efforts in Afghanistan is to build the country’s capacity to provide for its own security by housing, training,
and equipping up to 134,000 Afghanistan National Police by September 2011. The Combined Security Transition Command-
Afghanistan (CSTC-A) provided $5.9 million to the U.S. Army Corps of Engineers (USACE) to construct seven District Headquarters
facilities in Bughram (later de-scoped from the contract), Garm Ser, Nad Ali, Nahri Saraj in Helmand Province and Takhta Pul, Spin
Boldak, and Zeheli in Kandahar Province. USACE awarded this firm fixed-price contract to Basirat Construction, an Afghan firm, in May
2007. USACE’s Afghanistan Engineer District-South (AED-S) was responsible for providing program management, contract
administration, and oversight of construction activities. This report assesses (1) contract schedule and cost, (2) construction
outcomes, and (3) oversight of the project. To accomplish these objectives, we reviewed relevant contract documents and USACE
quality assurance guidelines, interviewed officials from USACE and the contractor, and performed site inspections at all six project
sites during the months of May and June of 2010. We conducted our work in Kabul and in the Kandahar and Helmand Provinces of
Afghanistan from May 2010 to September 2010, in accordance with generally accepted government auditing standards.


What SIGAR Found
Originally scheduled for completion by January 9, 2009, the project’s completion has been delayed due to three key factors: (1) an
extension of the project completion date by 500 days to May 24, 2010, due to a contract modification affecting one of the six project
sites; (2) confusion between USACE and Basirat Construction regarding project design issues, and (3) two suspension letters issued by
USACE, one due to security concerns. Identified by USACE to be approximately 90 percent complete as of August 2010, one site has
been turned over to the ANP and another site has been cleared for turnover to the ANP. The contractor has made nominal progress
on another site, and the other three sites remain idle. While the scheduled payments that the government has made to the
contractor do not exceed the modified contract amount of $5.5 million, it is unlikely the contractor will complete the remaining five
sites with the remaining contract funds given the numerous construction deficiencies that need to be repaired. While the contractor
is liable for correcting deficient work, it is not clear whether this will happen. In particular, almost all performance payments have
been paid out and minimal funds were withheld from contractor payments to cover deficient work. In addition, Basirat Construction
has limited incentive to comply with the contract’s terms since it is unlikely that it will receive future USACE contract awards given its
performance on this and other USACE projects.
Project construction at each site failed to meet the requirements as established in the contract documents and approved construction
documents. The level of non-compliance at each site varied, but overall the construction was poor. Problem areas identified by SIGAR
included low quality concrete and inadequate roofing installations. For example, inadequate concrete and foundation work calls into
question the structural integrity of the buildings and raises the risk of collapse. SIGAR also identified several cases of product
substitution where lower grade materials were used instead of the quality specified in the contract. For example, poor quality
residential-grade windows were used instead of commercial-grade windows that are thermally insulated and tempered.
USACE and Basirat Construction developed project-specific quality assurance and quality control plans to ensure oversight for the
project; however, these plans were not implemented effectively. Specifically, required quality assurance testing, quality control
testing, three-phase inspections of definable features of work, and daily site visit reports were generally not performed. USACE staff
attributes the lack of adequate project oversight, in part, to security concerns. In light of this, it is even more important to obtain
contractor-prepared daily quality control reports and station USACE’s local national quality assurance representatives (LNQARs) at the
project sites to submit daily quality assurance reports to staff in USACE’s office in Tombstone, Helmand Province. SIGAR found both
the contractor and LNQARs failed to provide an adequate level of daily reporting on work progress at job sites. Further, USACE staff
did not appear to take full advantage of its security contractor and local resources, such as security resources at forward operating
bases, which could have facilitated on-site project oversight.


What SIGAR Recommends
To address the construction deficiencies, this report recommends that the Commanding General, USACE, in coordination with USFOR-
A and CSTC-A, evaluate the full range of facility deficiencies at the six project and direct the contractor to make the required repairs.
This report includes an additional five recommendations designed to help USACE make necessary repairs and recoup costs from the
contractor, as necessary; improve oversight; and, prevent payment and performance problems on future construction projects. In
commenting on a draft of this report, USACE concurred with the majority of the recommendations. Based on USACE’s comments, we
revised wording in two of our recommendations.

                      For more information contact: SIGAR Public Affairs at (703) 602-8742 or PublicAffairs@sigar.mil




SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                                                     Page ii
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
Project is Behind Schedule and Increased Project Costs Will Likely Run Over
    Budget .................................................................................................................................................... 4
All Six Sites Failed to Meet Requirements of Construction Plans and
     Specifications .......................................................................................................................................... 8
Project Oversight Did Not Comply With USACE Standards in Part Due to Security
    Concerns ............................................................................................................................................... 18
Conclusion ................................................................................................................................................... 22
Recommendations ...................................................................................................................................... 23
Comments ................................................................................................................................................... 24
Appendix I: Scope and Methodology ......................................................................................................... 25
Appendix II: Overview of USACE Quality Assurance System ..................................................................... 27
Appendix III: Comments from U.S. Army Corp of Engineers...................................................................... 29


TABLES

Table 1: ANP Project Site Contract Amounts, Percentage Complete, and Progress
    Payments, as of May 10, 2010 ............................................................................................................... 5
Table 2: Contract Schedule and Cost Changes.............................................................................................. 6
Table 3: Site-Specific Deficiencies ............................................................................................................... 17
Table 4: Daily Quality Assurance Reports Submitted by Month and Project Site ...................................... 20


FIGURES AND PHOTOS

Figure 1: Location of ANP Project Sites and USACE’s Tombstone Resident Office ...................................... 3
Photo 1: Nahri Saraj ANP District Headquarters........................................................................................... 4
Photo 2: Placement of Watery Concrete Mix ............................................................................................... 9
Photo 3: Poor Concrete Slab-on-Grade with No Reinforcement at Garm Ser Site....................................... 9
Photo 4: Exposed Randomly Placed Steel Reinforcing in Concrete Roof Slab at
   Garm Ser Site ........................................................................................................................................ 10
Photo 5: Poorly Formed and Consolidated Concrete Stairs at Garm Ser Site ............................................ 10
Photo 6: Crumbling Concrete Stairs of Different Heights at Garm Ser Site ................................................ 10
Photo 7: Gap Between Roof Panels and Exterior Wall at Nahri Saraj Site.................................................. 11
Photo 8: Damaged Roof Panels and Improper Flashing Installation at Spin Boldak
   Site ........................................................................................................................................................ 11
Photo 9: Partially Demolished Roof at Nad Ali Site .................................................................................... 12



SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                                                                          Page iii
Photo 10: Poorly Installed Window Supported by Rocks at Garm Ser Site ................................................ 13
Photo 11: Poorly Installed Window at Takha Pul Site................................................................................. 13
Photo 12: Ballistic Glass Shattered by Bullet at Nahri Saraj Site ................................................................ 13
Photo 13: Residential Grade "Goose-Neck" Faucets at Takha Pul Site....................................................... 14
Photo 14: Residential Grade Undersized Scullery Sink at Nad Ali Site ....................................................... 15
Photo15: Unauthorized Pedestal Sink at Nad Ali Site ................................................................................. 16
Photo16: Properly Constructed Trough-Style Sink at Nad Ali Site.............................................................. 16




ACRONYMS

AED-N                          Afghanistan Engineering District-North
AED-S                          Afghanistan Engineering District-South
ANP                            Afghanistan National Police
ANSF                           Afghanistan National Security Forces
COR                            Contracting Officer Representative
CSTC-A                         Combined Security Transition Command-Afghanistan
DFOW                           Definable Feature of Work
DLQAP                          District Level Quality Assurance Plan
FAR                            Federal Acquisition Regulation
FOB                            Forward Operating Base
LNQAR                          Local National Quality Assurance Representative
QAR                            Quality Assurance Report
USACE                          U.S. Army Corps of Engineers




SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                                                 Page iv
    ANP District Headquarters Facilities in Helmand and Kandahar Provinces Have
      Significant Construction Deficiencies Due to Lack of Oversight and Poor
                              Contractor Performance


One of the main objectives of coalition efforts in Afghanistan is to build the country’s capacity to provide
for its own security by housing, training, and equipping the Afghanistan National Security Forces (ANSF),
which consists of the Afghanistan National Army (ANA) and the Afghanistan National Police (ANP). From
a reported size of 95,000 personnel in December 2009, the ANP is expected to grow to almost 134,000
personnel by October 2011. To meet the infrastructure needs of this growing force, the Combined
Security Transition Command-Afghanistan (CSTC-A) funds a country-wide building program to support
the national, regional, and district-level operations of ANSF. The U.S. Army Corps of Engineers (USACE)
through its two district offices, 1 is responsible for awarding, monitoring, and ensuring successful delivery
of the majority of these construction projects. 2

USACE’s Afghanistan Engineering District awarded Basirat Construction, an Afghan firm, a single contract
in the amount of $5.9 million to construct seven ANP district headquarters in Helmand and Kandahar
Provinces. 3 This report (1) identifies whether the ANP project sites are being constructed within the
schedule and cost terms of the contract, (2) determines whether the construction is in accordance with
approved construction plans and specifications, and (3) evaluates the nature and adequacy of USACE
contract administration and construction oversight. This report is one in a series of performance audits
by the Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR) to examine
contract cost, schedule, outcome, and oversight of reconstruction efforts in Afghanistan.

To accomplish these objectives, we reviewed relevant contract files including statements of work,
modifications, available construction plans and specifications, and quality assurance/quality control
plans and reports. We examined criteria and guidance defined in the Federal Acquisition Regulation
(FAR) and USACE’s Afghanistan Engineering District-South (AED-S) District-Level Quality Assurance Plan
for Construction. We interviewed officials from USACE’s AED-S, Afghanistan Engineering District-North
(AED-N), Basirat Construction, and Global Strategies, 4 and conducted inspections of the Garm Ser, Nad

1
  AED-South was established as a separate district on August 3, 2009, in response to a growing workload that AED
headquarters in Kabul could not manage alone. Afghanistan Engineer District-North is based in Kabul and
Afghanistan Engineer District-South is based in Kandahar.
2
  USACE maintains a Memorandum of Agreement with CSTC-A to perform these services for an agreed upon
percentage of the overall construction cost. According to AED-S personnel, the current billing rate for supervision
and administration is 9 percent of construction costs. At that rate, the fee USACE will charge CSTC-A for this
contract is approximately $530,000.
3
  USACE unofficially refers to these types of contracts as “bundled contracts” meaning that one contract is
awarded to a firm for construction of multiple identical projects. According to USACE officials, this was a
commonly used approach for several years; however, they are no longer awarding these types of contracts. See
FAR 7.103(s)(2). The Department of Defense recently published an interim rule amending the DFAR, effective July
13, 2010, to discourage bundling of contracts. 75 FR 40714. USACE was unable to supply SIGAR with the number
of these types of contracts that have been awarded.
4
  AED-S contracted with Global Strategies to provide security for its personnel.



SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                               Page 1
Ali, and Nahri Saraj sites in Helmand Province, and the Spin Boldak, Takha Pul, and Zeheli sites in
Kandahar Province. We conducted our work in Kabul and in the Afghanistan provinces of Kandahar and
Helmand from May 2010 to September 2010, in accordance with generally accepted government
auditing standards. Appendix I presents a more detailed discussion of our scope and methodology.


BACKGROUND

Funded at a total original cost of approximately $5.9 million by CSTC-A, this firm fixed-price contract
(W917PM-07-C-0039) to build seven ANP District headquarters was managed and overseen by USACE
through its Tombstone Resident Office in Helmand Province. 5 Once completed, these compounds will
support approximately 120 police personnel each. On May 9, 2007, the contract was awarded to Basirat
Construction, an Afghan-owned company based in Kabul, which began construction in October 2007 in
Helmand and Kandahar provinces. Basirat sub-contracted the Kandahar sites to AWCC and the Helmand
sites to AMBCC, both Afghan-owned firms. Although the contractor performance period expired on
May 24, 2010, the final completion date for construction of the remaining project sites is not known.
According to USACE records, the total project was approximately 90 percent complete as of August
2010. Figure 1 shows the location of the six project sites and USACE’s Tombstone Resident office.




5
 The USACE Tombstone Resident Office provided oversight for this construction project and its personnel included
a Resident Engineer, Project Engineer, and Quality Assurance Representatives.
SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                           Page 2
     Figure 1: Location of ANP Project Sites and USACE’s Tombstone Resident Office




                                                                                 AFGHANISTAN




                                                                 Office

     Source: SIGAR.

According to the contract documents, each completed compound should contain a central headquarters
building that includes prisoner holding cells, administrative offices, billeting areas, food preparation and
dining facilities, latrines with showers, and an armory. Each compound should also have a perimeter
wall, four guard towers, a well house, water storage tank, and fuel storage for both diesel and propane.
Photo 1 shows one completed facility at Nahri Saraj.




SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                       Page 3
     Photo 1: Nahri Saraj ANP District Headquarters




     Source: SIGAR, June 24, 2010.




PROJECT IS BEHIND SCHEDULE AND INCREASED PROJECT COSTS WILL LIKELY RUN OVER
BUDGET

The project for the construction of the 6 ANP facilities is behind schedule and will likely run over budget
due to the significant costs associated with correcting construction deficiencies estimated to be as much
as $1 million. Originally scheduled for completion by January 9, 2009, the project’s completion date has
been delayed due to three key factors: (1) the project completion date was extended by 500 days to
May 24, 2010, due to a contract modification affecting one of the six project sites; (2) delays in
construction that resulted from confusion between USACE and Basirat regarding project design issues;
and (3) delays following the issuance of two suspension letters issued by USACE, one due to security
concerns. While the scheduled payments that USACE has made to the contractor do not exceed the
original contract amount, it is unlikely that the contractor can complete the five remaining sites with
available contract funds given the costly repairs to correct the numerous construction deficiencies.
Although Basirat is liable by contract for correcting deficient work, this may not happen because
sufficient contract funds may not have been retained by USACE to correct deficiencies and Basirat may
lack incentive due to the fact that they are unlikely to receive additional USACE contracts.

Table 1 shows the original and current award amounts for each site, percentage complete, and the
amount of progress payments made as of May 10, 2010.




SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                      Page 4
     Table 1: ANP Project Site Contract Amounts, Percentage Complete, and
     Progress Payments, as of May 10, 2010
                             Original            Current
     Construction                                          Percentage      Progress
                              Award             Contract
     Site                                                   Complete      Payments
                             Amount             Amount
     Bughran                $839,299            $50,000    Deleted       $50,000.00
     Garm Ser               $839,299           $883,729        80       $703,892.20
     Nad Ali                $839,299           $883,729        93       $823,154.05
     Nahri Saraj            $839,299           $883,729       100       $881,209.00
     Spin Boldak            $839,299           $883,729        99       $881,689.00
     Takha Pul              $839,299           $883,729        88       $781,121.30
     Zeheli                 $839,299         $1,047,749        86       $905,222.20
     Source: SIGAR analysis of data provided by AED-S.

As of August 25, 2010, Nahri Saraj has been accepted and turned over to the ANP, Spin Boldak has been
cleared for turnover to the ANP, Garm Ser has made nominal progress toward completion, and the
other three sites remain idle.

Contract Modifications and Other Factors Have Delayed Project Completion

A series of contract modifications reduced the total number of sites to 6, extended the total
construction time by 500 days, and decreased the contract value from $5.9 million to $5.5 million.
Table 2 provides a summary of these contract modifications.




SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                       Page 5
     Table 2: Contract Schedule and Cost Changes
                                                   Contract       Schedule
     Modification     Date                                                      Reason for Modification
                                               Value Change         Change
     P00001           Jan. 7, 2008                     $0.00         0 days     Administrative in nature; added a
                                                                                clause associated with contractor
                                                                                personnel accompanying armed
                                                                                forces personnel outside the U.S.
     P00002           Sept. 27, 2008              $25,089.20         0 days     Provided for additional demolition
                                                                                work necessary at the Spin Boldak
                                                                                and Zeheli sites
     P00003           Nov. 18, 2008              $138,931.00       500 days     Changed the coordinates of the
                                                                                Zeheli site, Impact discussed below
     P00004           Apr. 19, 2009            ($789,299.00)         0 days     Removed the Bughran site from the
                                                                                scope of work
     P00005           Dec. 27, 2009              $266,580.00         0 days     Modified the guard towers at all six
                                                                                sites; dollar amount covered design
                                                                                and materials costs for 24 towers
     TOTAL                                     ($358,698.80)       500 days
     Source: SIGAR analysis based on AED-S records.

The contract modification (modification P00003) changed the coordinates of the Zeheli site. This shift in
coordinates required the contractor to move the project site to another location. While this relocation
issue only applied to the Zeheli site, the modification extended the contract completion date for all sites
by 500 days to May 24, 2010, and added almost $140,000 to the total project cost. The reason for the
shift in location is not specified in the modification, and AED personnel could not recall the
circumstances requiring the change. Although the modification was based on an issue specific to one
site, AED-S officials could not provide a reason for the extension of the project completion date by 500
days for all six projects. The same officials noted that, in retrospect, that this decision was a mistake
causing the government to lose its leverage to push for the completion of the other project sites in a
timely manner.

In addition to this modification, we determined that the USACE plan review process and two suspension
letters issued by USACE further delayed completion of this contract. After nearly three years, USACE has
not formally approved a single site design plan, including the two sites where construction has been
completed. The contract required Basirat to “site adapt” the construction plans provided by USACE to
the six different sites. 6 With the exception of the foundation, the contractor is not required to change
any part of the building. While the contract did focus on the site adapt nature of the project, SIGAR
found elements of the “design build” 7 approach to construction in both the contract and USACE’s
review of the construction plans. For example, USACE staff created unnecessary work and delays by
reviewing the plans for the interior of the headquarters building that Basirat was not required to design
and asked them to make changes that they were not required to make.

6
 “Site adapt” refers to a process whereby the contractor is provided a complete set of construction drawings for a
building that can be constructed anywhere with only slight adjustments to the foundation to suit local soil
conditions
7
  Under a “design-build” approach to construction, the contractor is responsible for designing the entire project,
including the building, then constructing it. See FAR 36.102.
SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                              Page 6
In addition to the delays created by the review process, USACE issued two letters instructing Basirat to
suspend work at three of the sites. On October 22, 2008, USACE directed that work be suspended at
Garm Ser and Nad Ali due to security concerns. The contract files do not contain correspondence that
indicates when the suspension was lifted. On May 29, 2008, another suspension letter was issued to
Basirat for the Zeheli site. The letter does not specify the reason for the suspension. This suspension
was lifted 124 days later, on September 30, 2008.

Basirat Is Unlikely to Cover the Cost of Correcting Construction Deficiencies and Repairs

Final construction costs will likely exceed current contract amounts due to the numerous construction
deficiencies identified at the sites, discussed later in this report. 8 The full extent of construction
deficiencies and total repair costs remains to be determined; however, USACE’s early estimate of repair
costs indicates that the deficiencies we identified may require as much as $1 million to correct. Basirat is
contractually required to address any material deficiencies in construction. However, there is a risk that
Basirat may not comply with its obligations for the following reasons:

    •   As of May 10, 2010, Basirat has been paid just under $5 million or over 90 percent of the
        contract value. Because there is less than 10 percent of the contract left to be paid, Basirat has
        a reduced incentive to continue with construction and correct known deficiencies.
    •   USACE has largely ignored or poorly executed the mechanism in the contract that enables the
        government to recoup monies for deficient work. As a result, Basirat has recieved payment for
        almost the entire amount of the contract, with little to lose if the company abandons the
        project. 9 The Federal Acquisition Regulation (FAR) 10 allows the government to withhold a
        maximum of 10 percent from each pay application submitted by the contractor until a
        contracting officer’s representative can verify satisfactory completion of the work. Despite
        issuing several letters to the contractor during 2009 that threatened to withhold the maximum
        retainage allowed by the FAR, due to deficient work and chronic schedule delays, USACE
        retained only $27,000, 11 or approximately 0.5 percent of the total contract amount, as of May
        10, 2010. According to a USACE contracting officer’s representative, retainage was released
        during a portion of the project because the work had been satisfactorily completed.
    •   Basirat is unlikely to address identified deficiencies since it might not obtain contract awards
        from USACE in the future. Since the award of the ANP facilities contract, Basirat abandoned, or
        has been terminated for default, on the four other contracts awarded by USACE. 12 Additionally,
        on August 26, 2010, Basirat and Al Watan Construction Company, one of the two major


8
  Project costs will also increase due to the early occupation of the Nad Ali site by ANSF personnel. In December
2008, a group of ANP personnel forcibly occupied the site, which stopped work. We observed that the ANP
occupation caused significant damage to the project including the partial demolition of the roof as well as trash,
food scraps, and human waste scattered across the site and inside the buildings.
9
  The contract contains a provision for liquidated damages, to be assessed against the contractor, totaling nearly
$2,000 for each day the project exceeds the final completion date of May 24, 2010. USACE decided to refrain from
assessing liquidated damages in “the spirit of partnering and in an effort to avoid any future delay.”
10
   See FAR 52.232-5(e), applicable to fixed-price construction contracts such as the Basirat contract.
11
   According to the provisions in the FAR, USACE could have withheld up to 10 percent of each payment to Basirat
as retainage. If USACE had done this it would have held nearly $500,000, as of May 10, 2010, to pay for deficient
work.
12
   According to the owner of Basirat, USACE had awarded Basirat a total of 4 contracts, in 2007 and 2008 to
construct ANP District Headquarters.
SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                             Page 7
        subcontractors working on this project, received suspension letters from the U.S. government
        based on allegations of illegal activity involving U.S. government construction contracts.


ALL SIX SITES FAILED TO MEET REQUIREMENTS OF CONSTRUCTION PLANS AND
SPECIFICATIONS

Our inspection found that construction at each of the six sites failed to meet requirements as
established in the contract documents, construction plans, and specifications. The level of non-
compliance at each site varied, but overall, our assessment found that the construction can be
characterized as poor. Most significantly, we observed structural issues that cast doubt on the facilities’
ability to withstand an earthquake, as required by the contract. In addition, metal roofing at all six sites
was improperly installed, resulting in large gaps that allow water to seep through and will likely result in
subsequent damage to the roof substructure and insulation. Lower-grade materials were substituted for
the product specified in the contract documents. For example, residential-grade single-pane, non-
tempered, non-laminated windows were used in all headquarters buildings, rather than the required
commercial-grade windows that are thermally insulated, tempered, and laminated. AED-S estimates it
will cost up to $1 million alone, to correct the construction deficiencies we identified.

Significant Construction Deficiencies Were Common to Multiple Sites

During our site inspections, we found significant construction deficiencies at multiple sites. Some
deficiencies were specific to an individual site, but we also observed similar deficiencies at a number of,
and sometimes at all, sites. We also observed numerous cases of product substitution. With regard to
poor quality of construction, we observed that substandard in-place concrete and the absence of quality
assurance and quality control testing meant that the structures did not meet building code
requirements as required in the contract. For example, USACE failed to require foundation designs for
4 of the 6 sites. As a result, USACE lacks adequate assurance that the constructed facilities will not
collapse during an earthquake or even under normal loads.

Concrete at All Project Sites Appeared to Be of Poor Quality

The contract documents contain detailed information pertaining to the proper preparation, placement,
and finishing of reinforced concrete. 13 The requirements pertaining to concrete slump tests, 14
compressive strength, and steel reinforcement placement and concrete coverage must be followed to
ensure the structural integrity of the completed facility. We observed poor quality concrete at all sites
and found no evidence of quality control testing records to verify that the concrete used in foundations,
columns, beams, stairs, and slabs was either mixed or placed properly.

As part of our analysis, we reviewed several photographs submitted by Local National Quality Assurance
Representatives (LNQARs) of slump tests being performed and of concrete being placed in the
structures. The photos we reviewed revealed that the thin concrete mixture placed in the structure did

13
   Concrete consists of water, Portland cement, and aggregates in the form of sand and gravel. Different
proportions of these ingredients, particularly water and cement, yield concrete of different strengths. Reinforced
concrete has steel bars that run through it.
14
   Slump refers to a specific test of a concrete sample to determine the workability and consistency between
batches of concrete. A sample of concrete is placed in an inverted steel cone, the cone is removed, and the
distance the concrete sample falls or “slumps” is then measured. This test is used to ensure consistent ratios of
cement, water, and aggregate between batches, which roughly correlates to consistent concrete strength.
SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                              Page 8
not appear to meet slump test standards, indicating weak concrete. Photo 2 shows a construction
worker pouring a watery concrete mixture, not likely to meet concrete test standards, for a roof slab at
one of the six sites. Photo 3 shows poor concrete at what appears to be a slab-on-grade at the Garm Ser
site.

     Photo 2: Placement of Watery Concrete           Photo 3: Poor Concrete Slab-on-Grade with No
     Mix                                             Reinforcement at Garm Ser Site




     Source: AED-S, no date provided.                Source: SIGAR, June 27, 2010.

The absence of any quality control test results for the in-place concrete, discussed later in the report,
creates questions regarding the structural integrity of the entire building. We observed areas of poorly
consolidated concrete at each of the six sites. Because the buildings are covered in a stucco coat, many
other areas that may contain unconsolidated concrete could not be observed.

Improper installation of steel reinforcement bars within concrete work also posed a significant risk to
the structural integrity of some completed buildings. The contract documents provided details on where
steel reinforcement should be placed within a concrete structure. For example, on the roof slab, the
contract documents indicated that two perpendicular grids of steel reinforcing bars should be placed in
the top and bottom portions of the slab and covered with a minimum amount of concrete. At several
locations we observed randomly placed reinforcement bars protruding through the roof slab. Randomly
placed steel bars do not provide the required structural capacity for the building and exposed steel will
corrode and weaken the structure. Photo 4 shows randomly placed steel reinforcement on the concrete
roof slab at the Garm Ser site, in breach of contract specifications.




SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                     Page 9
     Photo 4: Exposed Randomly Placed Steel Reinforcing in
     Concrete Roof Slab at Garm Ser Site




     Source: SIGAR, June 27, 2010.

Our inspections found concrete stairs at facilities that were poorly formed, improperly constructed, and
comprised of poor concrete with questionable strength. The cast-in-place concrete stairs at all six sites
did not conform to the construction drawings either structurally or architecturally. The plans indicated
that the stairs were intended to be monolithically cast-in-place reinforced concrete with a curved metal
wearing strip embedded at the edge of each step and sealed with a chemical sealant. The treads and
risers of the stairs we observed were of varying dimensions. We also observed that the steps were
formed separately from the sloped base of the stairs, creating a weakened section that could fail under
normal use. Photographs 5 and 6 shows poorly consolidated concrete and improperly formed stairs at
Garm Ser.


     Photo 5: Poorly Formed and Consolidated              Photo 6: Crumbling Concrete Stairs of
     Concrete Stairs at Garm Ser Site                     Different Heights at Garm Ser Site




     Source: SIGAR, June 27, 2010.                        Source: SIGAR, June 27, 2010.



SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                    Page 10
Roof Construction Failed to Meet Contract Requirements

Our inspection of the sites found that the roofing materials and their installation were poor at all sites.
Each site where roofing had been installed contained insufficient and improperly constructed framing,
lack of flashing, 15 and improper roof panel installation that did not properly weatherproof the structure
and could be blown off in high winds. The contract documents and the specifications 16 submitted by the
contractor and approved by USACE, require that flashing be installed at all locations where the roof line
intersects with a vertical surface or where pipes or vents are installed. Additional requirements include
the proper lapping and securing of metal roof panels. We observed deficiencies including a complete
lack of proper flashing on the roof, the presence of holes and other damage to the roof panels, improper
overlap of roof panels, and large gaps between roof panels. We observed poor timber framing for roof
support on all buildings at each site, poorly constructed roof access assemblies on the main
headquarters buildings, and poorly constructed pump access hatches on the well houses.

Photograph 7 shows a large gap between the metal roof and the exterior wall at Nahri Saraj that will
allow water to penetrate the sub-structure. Photograph 8 shows a damaged roof panel with improperly
installed flashing.


     Photo 7: Gap Between Roof Panels            Photo 8: Damaged Roof Panels and
     and Exterior Wall at Nahri Saraj            Improper Flashing Installation at Spin
     Site                                        Boldak Site




     Source: SIGAR, June 29, 2010.               Source: SIGAR, May 16, 2010.

At the Nad Ali site, an ANP unit forcibly occupied the site, demolishing approximately half of the
completed roof structure. The remaining portion was poorly constructed, sagging significantly when
weight was applied. Photo 9 shows the partially demolished roof at Nad Ali.



15
   Flashing is a thin impervious material used in construction to prevent water penetration and/or provide water
drainage, such as between a roof and wall, and over exterior door openings and windows.
16
   Specifications, submitted with construction drawings, are project-specific supplemental documents that provide
more technical and precise guidance regarding acceptable materials, procedures, and product performance than
the construction drawings alone.
SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                           Page 11
     Photo 9: Partially Demolished Roof at Nad Ali Site




     Source: SIGAR, June 22, 2010.



Instances of Product Substitution Were Common to All Six Sites

All six sites of the project were affected by product substitution. We observed multiple cases of product
substitution where the contractor used materials that were inferior to those required by the contract.
The most notable example of product substitution pertained to the substitution of window products, at
all sites, both in the headquarters buildings and the guard towers. In addition, we observed instances
of substitution of plumbing fixtures, including faucets, lavatory sinks, and kitchen sinks.

Window Substitutions and Improper Installation Were Common

The contract requirements indicated that the windows in the headquarters buildings should be
commercial-grade, insulated windows with laminated glass and exterior insect screens. The installed
windows in the headquarters buildings at all six sites were not as specified. We found inferior,
residential-grade window frames that operated with difficulty and appeared to be easily damaged.
Many window frames did not contain glass and, if glass was installed, it was single-pane, non-laminated
glass. In addition, none of the required insect screens were installed at any of the six sites. At 4 of the 6
sites, the windows were not only lesser quality, but many were smaller than required. At 3 of the 6
sites, window installation was poor with large gaps between the rough openings in the wall and the
installed window frame. One window at Garm Ser was installed with a gap so large that the window had
to be supported by rocks (see photo 10).




SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                       Page 12
     Photo 10: Poorly Installed Window
     Supported by Rocks at Garm Ser Site




     Source: SIGAR, June 28, 2010.

Left in place, these inferior windows and the poor installation will create significant problems for the
facilities in the future, including excessive energy use and replacement demands. AED-S estimated the
cost of correcting this deficiency at more than $120,000. Photo 11 shows a poorly fitted window typical
of the installation at Takha Pul.


     Photo 11: Poorly Installed Window at             Photo 12: Ballistic Glass Shattered by
     Takha Pul Site                                   Bullet at Nahri Saraj Site




     Source: SIGAR, May 16, 2010.                      Source: SIGAR, June 24, 2010.


SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                   Page 13
The contract requirements further state that the windows in all the guard towers and guard shacks must
be of ballistic quality. With the exception of one location where windows were installed, we observed
inferior, residential-grade, single-pane windows in place of the required ballistic glass. At Nahri Saraj,
the only site where ballistic glass was installed, one window had been shattered by the impact of a
bullet (see photo 12). 17 At the Spin Boldak site the window opening was filled with concrete blocks,
which eliminated the ability to see that avenue of approach when he is inside the guard tower.

Plastic Faucets Will Break Over Time

The contract required that all faucets be chrome-plated brass with a single mixing lever. We found that
at the four sites where faucets were installed, none met the specification requirements. At two of the
sites, dual-handle residential-grade plastic faucets were installed. Chrome-plated faucets were installed
at the other two sites, but they appeared to be residential grade and also had two handles. At all four
sites, the installed faucets did not appear to be able to withstand the heavy use expected at this type of
facility. Photo 13 shows the plastic, “goose-neck” faucets that do not meet contract requirements,
installed at Takha Pul.


        Photo 13: Residential Grade "Goose-Neck" Faucets at
        Takha Pul Site




        Source: SIGAR, May 16, 2010.

Undersized Scullery Sinks Found at Three Sites

At 3 of the 6 sites, the scullery sinks installed did not meet contract requirements or specifications. The
contract and specifications required stainless-steel, free-standing sinks capable of accommodating a 3-
foot diameter pot. None of the sinks we inspected met either of these specifications. Instead, the sinks
installed were counter mounted and appeared to be approximately 6 to 9 inches deep and of residential
quality. At the Nahri Saraj site, SIGAR observed ANP kitchen staff preparing food in pots approximately
2 feet in diameter. Photo 14 shows the substituted, undersized scullery sink at the Nad Ali site.



17
     It is unclear if the ballistic glass installed met the 16-millimeter specification contained in the contract.
SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                                       Page 14
     Photo 14: Residential Grade Undersized Scullery Sink at
     Nad Ali Site




     Source: SIGAR, June 22, 2010.

Pedestal Sinks Rather than Trough-Style Sinks Were Installed at Four Sites

The contract and construction documents specify that sinks throughout the project are to be trough-
type sinks constructed of concrete blocks with a tile exterior; however, at 4 of the 6 sites, residential-
grade porcelain sinks were substituted. AED estimated that it will require approximately $30,000 to
correct this deficiency. According to USACE officials, Afghan men often stand or sit on the sink to wash
their feet, frequently breaking the porcelain pedestal sinks installed in ANP facilities. Photo 15 shows an
unauthorized residential-grade porcelain sink and photo 16 shows a properly constructed trough-style
sink at Nad Ali.




SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                     Page 15
     Photo15: Unauthorized Pedestal           Photo16: Properly Constructed Trough-Style Sink
     Sink at Nad Ali Site                     at Nad Ali Site




     Source: SIGAR, June 22, 2010.            Source: SIGAR, June 22, 2010.

Hand-Washing Sinks Were Omitted from All Six Facilities

According to contract requirements, trough-style hand-washing stations were to be located in the
vestibule of the dining area. This requirement was overlooked by both the contractor and USACE. None
of the construction drawings indicated hand-washing stations, and all six projects were constructed
without this feature. The lack of sinks could lead to poor hygiene and the spread of illness throughout
the police unit.

Each Site Has Additional Specific Construction Deficiencies, Substitutions, and Omissions

In addition to identified deficiencies and substitutions at multiple sites, we observed significant
construction deficiencies, product substitutions, and omissions unique to individual sites. Construction
deficiencies ranged from make-shift connections for ladders on the guard towers to air conditioner
hoses pulled through broken windows. Instances of product substitution ranged from the use of
multiple smaller gas cylinders in lieu of one 5500-liter tank, to the use of windows smaller than those
indicated on the plans. Omissions include approximately 1,400 linear feet of concrete channel, required
to control seasonal flooding at Spin Boldak, to required landscaping. Table 3 provides a list of site-
specific key deficiencies we identified during our site visits.




SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                   Page 16
     Table 3: Site-Specific Deficiencies
     Site               Deficiency
     Garm Ser           •    Plumbing installed on top of second-story slab and back filled with unknown
                             material.
                        •    Masonry walls on the pump and well houses not plumb.
     Nad Ali            •    Kitchen layout and counters not according to construction drawings, with the cook
                             top constructed on an interior wall with no place to run the exhaust vent.
                        •    Lack of tamper-proof plumbing fixtures in prisoner holding cells.
                        •    Cracks in masonry walls throughout the project.
                        •    Interior gas-line hanging unsupported across a room.
     Nahri Saraj        •    Electrical wiring run into a building through a knocked-out hole in the exterior wall.
                        •    Under-sized and poorly constructed storm water outlet structures.
                                                                           th
                        •    Inadequate exhaust hood, approximately 1/8 of the required size, powered by an
                             extension cord. Cooking area with propane cylinders located in the kitchen. Cook
                             top constructed on the wrong wall.
                        •    Per contract requirement, the contractor provided, and the USACE reviewed and
                             approved a detailed landscape plan that included trees, grass, shrubs, and sidewalks.
                             However, the project was accepted and turned over with no landscaping installed.
     Spin Boldak        •    Plastic plumbing pipe exposed in bathrooms.
                        •    Gas-fired heaters and gas supply piping with hand valves in prisoner cells.
                        •    Ommission of approximately 1400 linear feet of concrete channel for storm water
                             runoff.
                        •    Substitution of 30 portable propane cylinders for the required single 5500 liter tank.
                        •    No landscaping installed as required by the contract.
     Takha Pul          •    Plastic plumbing pipe exposed in bathrooms.
                        •    Electrical manholes with no conduit run to them.
                        •    Large gaps under exterior doors.
                        •    Windows intentionally broken to run air conditioning hoses out of the building.
                        •    Downspouts mounted to the side of the guttering rather than the bottom.
     Zeheli             •    Gaps and warping of fascia and soffit.
                        •    Poor masonry work on north perimeter wall.
                        •    Trench drain in kitchen area omitted.
                        •    Large sections of concrete missing from roof perimeter.
                        •    Poorly consolidated cast-in-place concrete septic tank with cold joints.
                        •    Poorly constructed diesel fuel tank support cradles with rebar protruding.
     Source: SIGAR observations at six sites.

Normally, there are two options available to address these deficiencies. First, USACE could insist that
the contractor correct the deficiencies at its own cost as required by the contract. Second, USACE could
accept the substandard work and reduce the contractor’s payment or bill for the difference. USACE
officials stated it is unclear whether either of these options will be available because Basirat has little
financial incentive to correct the deficiencies and USACE has limited ability to require that the repairs be
made.
SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                                 Page 17
We were unable to determine the full extent of the construction deficiencies at all six sites. An in-depth
engineering analysis of each site will be needed to reveal additional construction deficiencies beyond
those observed during our site visits. Such an assessment would determine the full extent and severity
of the identified structural issues at each site and provide conclusions regarding the structural integrity
of each facility, including its ability to meet the seismic standard specified in the contract. These
facilities do not meet the contract requirements concerning building code compliance, specifically
earthquake codes, and a determination will need to be made to either turn over a structurally deficient
and non-code compliant facility or to demolish it and start over. The results of an in-depth engineering
evaluation would provide the needed information to make such a determination.

In commenting on a draft of this report, USACE reported that site visits were conducted at three of the
project sites between September 27 and October 11, 2010. USACE provided information in its comments
on the status of the site-specific deficiencies. These comments are reproduced in appendix III.


PROJECT OVERSIGHT DID NOT COMPLY WITH USACE STANDARDS IN PART DUE TO SECURITY
CONCERNS

Our analysis revealed numerous instances where both USACE and Basirat failed to meet the oversight
requirements, in part due to the volatile security condition around each site. Project oversight is a
collaborative effort by the contracting agency and the contractor. Basirat was required by the contract
to implement certain quality control measures. As the contracting agency, USACE was required to
implement quality assurance measures designed to verify that the contractor’s quality controls were
properly implemented. Appendix II provides a detailed description of USACE’s quality assurance policies
and procedures and its expectations regarding contractor-developed quality control systems. Our
analysis revealed that Basirat generally failed to implement required quality control measures such as
quality control testing, three-phase inspections of definable features of work, 18 and daily quality control
reporting. Further, USACE generally failed to comply with its quality assurance procedures, including the
requirement to conduct periodic quality assurance testing, file daily quality assurance reports, and
review and approve pay applications on the basis of adequate evidence of job progress. This general
lack of quality assurance oversight can be attributed to security conditions at each site; limited site visits
and poor training provided to LNQARs; and AED’s reorganization, which led to staffing and
organizational issues that hampered project oversight efforts.

Project Oversight Deficient in Several Areas

Proper oversight is the government’s key safe guard to ensuring that U.S. tax dollars are not put at risk.
Although oversight measures were developed by both USACE and Basirat, in accordance with USACE
policy, the measures were not effectively implemented and oversight was not performed properly. We
attribute the construction deficiencies to Basirat’s negligence in provide oversight of their
subcontractors, USACE staff’s poor project oversight, and LNQARs lack of training and inability to visit
sites regularly.




18
  USACE construction projects are broken down into definable features of work that provide the key elements of
construction at each project site. Typical examples of DFOWs for a project such as this are site utility installation,
reinforced concrete construction, electrical installation, and roof construction, to name a few. Three-phase
inspections are required for all definable features of work and consist of a preparatory, initial, and follow-up
inspection.
SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                                 Page 18
Basirat Failed to Perform Quality Control Testing as Required

Although the contract required that Basirat develop a quality control plan and conduct quality control
testing throughout the project, Basirat did not comply with the plan or perform adequate quality
control testing. Required tests include soil density tests, compressive strength tests of concrete and
mortar, and radiographic weld tests. Basirat personnel supplied SIGAR with 31 copies of transmittal
forms which indicate QC test results were entered into the USACE Quality Control System (QCS).
However, no evidence of the actual test results could be produced by either Basirat or USACE. Basirat
attributed the lack of testing, in part, to the remote nature of some of the sites and the fact that no
laboratory existed in the area.

Basirat Failed to Conduct Required Three-Phase Inspections

Both the contractor’s quality control plan and the supplemental quality assurance plan prepared by
USACE identify 38 DFOWs for each site. In total, 684 inspections should have been performed under the
three-phase approach. However, the data supplied to SIGAR by USACE did not contain a single
completed inspection. The absence of three-phase inspections limits USACE’s knowledge of quality
control testing performed and quality of the work.

Basirat Failed to File Daily Quality Control Reports

The contractor quality control plan requires that the contractor file daily quality control reports with
USACE. These report forms identify what activities occurred on the site for any given day and lists what
quality control tests were performed. Our analysis revealed that these reports had not been filed since
the early months of 2008 for some sites and not at all for other sites. Without these reports, USACE has
little to no basis for knowing what progress has been made or what tests have been completed on any
given project, leaving little assurance that the contractor met the contract requirements.

USACE Failed to Perform Quality Assurance Testing

The supplemental quality assurance plan states that “Government testing of material will be performed
as needed to ensure contract compliance or to verify questionable quality control test results,” and
identifies 10 areas of work that require quality assurance testing. This means that when the LNQAR is
not satisfied with the contractor’s quality control testing frequency or results, he can require the
laboratory to perform additional tests at no cost to the government. However, USACE did not perform
any required quality assurance tests. Therefore, USACE had no way of knowing if the concrete used in a
building met compressive strength requirements, if the water or gas lines would leak, or if the welds on
the propane or diesel tanks would hold.

USACE Failed to Consistently File Daily Quality Assurance Reports

Daily USACE prepared quality assurance reports were not consistently filed or were of low quality.
USACE operated without on-going progress reports that provide the basis for identifying and remedying
construction problems as they occur. These reports also provide a key means for monitoring and
ensuring that required quality assurance testing, quality control testing, and three-phase inspections are
carried out. According to the USACE supplemental quality assurance plan, when LNQARs are used to
provide oversight, the Chief Quality Assurance Representative is required to ensure that the
U.S. government is represented a minimum of 80 percent of the time at the three-phase inspections
preparatory meetings for projects. However, USACE had no documentation that any such
representation occurred at any of the sites. During SIGAR site visits, Garm Ser, the only site where

SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                    Page 19
construction was underway, did not have an LNQAR present or assigned to the job. Table 4 represents
the limited number of daily quality assurance reports filed by LNQARs. A quality assurance report
should have been filed every day of the month.


 Table 4: Daily Quality Assurance Reports Submitted by Month and Project Site




 Source: SIGAR Analysis of USACE quality assurance reports for the 6 ANP sites.

USACE Approved Pay Applications Without Sufficient Evidence that Work Was Satisfactory

USACE processed pay applications and made payments without sufficient evidence that work had been
satisfactorily completed. According to the USACE District Level Quality Assurance Plan (DLQAP), one of
the responsibilities of the Area Engineer and the Resident Engineer is to “ensure that all payments to
contractors are fair and justified by actual product received by the government, realizing that default by
contractors in theater (Afghanistan) happens frequently.” However, pay applications were processed
based on incomplete or non-existent quality assurance reports and progress photographs submitted by
the LNQARs and the contractor. Several of the photographs, which are required to be date-stamped,
had dates that were digitally altered or erased. In September 2010, we alerted AED-S to the existence of
these altered photos. According to AED-S officials, an investigation has been initiated to determine the
source and nature of the photographs. In several cases, payments were made despite photographs
submitted by LNQARs that called attention to deficient work.

Security, Unqualified LNQARS, and Reorganization Contributed to Poor Oversight

Three key factors contributed to the poor level and quality of USACE oversight: (1) lack of security at the
sites, which hindered USACE personnel, and at times LNQARs, from conducting extended inspections or
prevented travel to the site; (2) the performance and training of the LNQARs assigned to the sites was
both inconsistent and inadequate; and (3) AED’s reorganization into AED-N and AED-S, led to
organizational and staffing issues that affected USACE’s ability to provide adequate oversight.

Security Concerns Cited as the Main Challenge to the Execution of Proper Oversight

USACE staff identified security concerns as the overriding factor limiting their ability to provide
comprehensive oversight; however, SIGAR found that security assets available to USACE staff could have
been used to provide a greater level of project oversight. Historically, Helmand and Kandahar Provinces
have seen the highest concentrations of insurgent activity since the start of the war in 2001. Indirect
fire—in the form of mortars and rockets, small arms fire, improvised explosive devices, car bombs,
suicide bombers, kidnappings, and hijackings—have all remained constant threats throughout both
provinces.



SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                     Page 20
According to USACE personnel, the inherent security risks associated with operating in a contingency
environment affected the ability of USACE personnel to perform regular site visits; restricted the
contractor’s ability to receive regularly scheduled shipments of building materials, and, at times,
affected the LNQAR’s ability or willingness to perform their duties for fear of their personal safety. At
the time of our site visits to Zeheli and Nad Ali, AED-S personnel had not visited the two sites in nearly
one year. The other four sites had not been visited in more than 4 months. Although USACE does not
have a policy that dictates the number of times staff are required to visit a construction site, there is an
expectation at USACE to conduct enough visits to meet the standards of oversight discussed in USACE
guidance and quality assurance plans.

If the available resources for secure movement had been used, the number of visits by USACE staff to
project sites could have been increased. Since January 2009, USACE has maintained a contract with
Global Strategies to provide protection and transportation for USACE personnel. 19 On a daily basis,
Global Strategies personnel determine what level of effort would be involved to move safely around the
country. Once the risk is assessed, a decision is made on the assets needed to safely conduct a mission.
According to Global Strategies personnel, while the security threat level may prevent the execution of a
particular mission, which they stated rarely happens, they have never reached the limit of their
operational capacity to move or protect USACE personnel when requested. 20

In addition, three of the construction sites, Garm Ser, Nad Ali and Zeheli, are located adjacent to
coalition force forward operating bases (FOBs). A fourth site, Nahri Saraj, is located within 2 kilometers
of a FOB. Coalition force rotary wing aircraft make regular flights to many of the FOBs and coalition
force personnel located at the FOBs adjacent to two of the sites expressed a willingness to assist in any
way possible to ensure the completion of the projects. In one case, U.S. Marine forces offered to
provide security for USACE site visits and provide in-person validation of construction progress when
needed. AED-S personnel confirmed that no attempt had been made during the project to use local
coalition force personnel for support. ISAF guidance, outlined in the counterinsurgency (COIN)
contracting guidance, directs commanders to “know what contracting activity is occurring in their
battlespace and who benefits from those contracts.” 21 The guidance further directs commanders to
“integrate contracting activity into intelligence, plans, and operations to exert positive influence and to
better accomplish our campaign objectives.”

LNQARs Failed to Provide Adequate Oversight Due to a Lack of Training and Security Concerns

The generally low quality or quantity of training received by the assigned LNQARs affected their ability
to provide adequate oversight. USACE did not begin to document the training received by LNQARs until
August 2010; however, according to USACE officials, the experience and knowledge of the LNQARs was
insufficient to adequately oversee the projects. Former Resident and Area Engineers associated with
this project indicated that LNQAR safety also played a role in their ability to provide proper oversight. It
is not uncommon for Taliban forces to target individuals who have been identified as working for
coalition force entities. USACE personnel indicated that being in possession of a digital camera or laptop
computer can be enough to warrant harassment, kidnapping, or death. A former USACE Area Engineer
attributed the limited number of pictures taken by one LNQAR to his fear of being seen with a camera.
According to AED-S personnel, because LNQARs are contracted, they are not afforded security by

19
   Prior to this time, coalition force support alone met USACE’s security requirement.
20
   According to Global Strategies personnel, the only two situations that would raise the threat level high enough
to prevent the execution of a mission would be insurgent occupation of the project, or coalition force enemy
engagements around the vicinity.
21
   Battlespace is a commander’s geographic area of responsibility.
SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                              Page 21
USACE. Rather, as one USACE personnel stated, “they travel on their own, surviving on their own wits
and good judgment.”

AED Reorganization Contributed to Oversight Challenges

Another factor contributing to the lack of oversight was the August 2009 split of AED into AED-N and
AED-S. According to AED-S officials, the reorganization of AED into two districts contributed to project
management and oversight problems in part because certain oversight responsibilities and program files
had to be transferred from AED-N to AED-S. AED-S staffing in August 2009 was about 40 individuals
compared with an authorized staffing of 299. As of August 2010, AED-S had approximately 235 staff, and
according to USACE officials, contract management and oversight have improved as a result.


CONCLUSION

Significant challenges to the completion of the USACE project to construct 6 ANP facilities in Helmand
and Kandahar Provinces included the award of a project to an inexperienced Afghan firm, the location of
project sites in relatively remote and less secure locations, and constraints on the movement and
deployment of USACE staff that resulted in the provision of limited oversight over the past 36 months of
construction. Security concerns posed significant challenges; however, available security assets,
including local coalition force units, were not fully utilized. In addition, USACE authorized payments
without sufficient justification and failed to retain adequate project funds as a hedge against poor
contractor performance. As a result of poor contractor performance and USACE’s failure to implement
its own quality assurance procedures, the U.S. government may be responsible for at least $1 million in
repair costs to address the construction deficiencies we identified. These deficiencies were both
extensive and unacceptable from a structural and safety standpoint. As the United States continues to
implement its policy of awarding more construction contracts to Afghan firms in remote or insecure
areas, USACE will need to ensure that adequate oversight is conducted to safeguard U.S. reconstruction
funds and provide suitable facilities for ANSF troops.




SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                  Page 22
RECOMMENDATIONS

We are making 6 recommendations to the USACE Commanding General to address the full range of
construction deficiencies and help USACE prevent payment and performance problems on future
construction projects.

To help ensure that construction complies with applicable contract and construction standards, SIGAR
recommends that the USACE Commanding General, in coordination with CSTC-A and USFOR-A, direct
AED-S to:

    1. Perform complete engineering evaluations of each of the six ANP project sites to determine the
       required level of reconstruction and repair needed to comply with the requirements of the
       contract.
    2. Pursue all available options to obtain necessary repairs by Basirat or recoup costs if the repairs
       are not made.

To help ensure that identified construction deficiencies in future projects will be paid for by the
responsible contractor, instead of the U.S. government, we recommend that the USACE Commanding
General, in coordination with CSTC-A and USFOR-A:

    3. Require that the maximum amount of retainage allowable by the FAR (10 percent) be withheld
       from each payment for projects where information on the construction progress and quality is
       obtained primarily through the contractor or LNQARs and where the contracting officer
       determines that satisfactory progress has not been made.
    4. Institute a requirement for USACE personnel to conduct site visits and verify payments for
       construction progress if the completed work has only been verified by photographs taken by the
       contractor or where the information provided by the LNQAR does not meet USACE quality
       assurance reporting standards.

To improve the management and oversight of similar USACE construction projects, we recommend that
the USACE Commanding General, in coordination with CSTC-A and USFOR-A:

    5. Ensure compliance with USACE quality assurance standards on this and related projects, by
       directing AED-S to require quality assurance representatives to file daily quality assurance
       reports, ensure three-phase testing is implemented, and perform and record quality control
       testing.
    6. Direct AED-S to develop a process and procedure for coordinating with local coalition force units
       to (a) help confirm construction progress claims, and (b) determine the feasibility of using
       coalition force assets to supplement security and transportation needs.




SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                     Page 23
COMMENTS

USACE provided written comments on a draft of this report. These comments are included in appendix
III. In its comments, USACE provided updated information on the project’s construction progress. It
concurred with the majority of the recommendations, but expressed concerns with two
recommendations. USACE agreed that construction had not met requirements; however, it does not
share our concerns regarding the ability of the facilities to withstand earthquakes. It also agreed to take
action to repair the poor construction and to improve its oversight. However, it stressed that security
conditions have made it very difficult to perform visits to construction sites.

USACE did not concur with our recommendation to recoup costs from the contractor, claiming that the
contractor was making necessary repairs and that some of the construction had been damaged by
hostile fire and was not the fault of the contractor. However, based on our work, it is clear that much of
the necessary repairs are due to poor construction. Based on its comments, we amended our
recommendation to focus on requiring the contractor to make all repairs and to use all available options
to recoup the costs if the repairs are not made. To avoid waste and abuse, SIGAR maintains that U.S.
agencies must hold contractor accountable for results.

USACE also did not concur with our recommendation to withhold payments until verification that
construction has been completed according to contract requirements. USACE said that this would
negatively affect Afghan firms. SIGAR continues to believe that withholding payments until it has been
determined and verified that the contractor has met requirements is a prudent measure to protect the
U.S. taxpayer and meet reconstruction objectives, and prevent waste and abuse of U.S. reconstruction
dollars. However, we have changed the wording of our recommendation to emphasize the importance
of withholding final payments when USACE has concerns that contractor performance and progress may
not be satisfactory.

CENTCOM, USFOR-A, and CSTC-A did not comment on a draft of this report.




SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                     Page 24
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s review of a contract funded by the Combined Security Transition Command-
Afghanistan (CSTC-A) and implemented by the U.S. Army Corps of Engineers (USACE) to complete six
Afghan National Police district headquarters in Helmand and Kandahar Provinces. This report assesses
(1) whether the project is being constructed within the schedule and cost terms of the contract; (2) if
the construction is being completed in accordance with the approved plans and specifications; and
(3) the nature and adequacy of USACE contract administration and construction oversight.

To examine whether the project was being completed within the schedule and cost terms of the
contract, and if construction was being completed in accordance with approved plans and specifications,
we met with officials from Afghanistan Engineer District South (AED-S), the prime contractor, Basirat
Construction Firm, and Global Strategies Group. We reviewed the final contract documents including
statements of work, notices to proceed, and modifications. We conducted site inspections of all six sites
between May 16, 2010, and June 29, 2010. We inspected the interior and exterior of all buildings as well
as the grounds within the perimeter wall against the requirements outlined in the contract and
supporting documents. Site inspections were documented with video and still photography. We used
computer-processed data from the U.S. Army Corps of Engineers’ Resident Management System to
determine the progress and payments made to date. In addition, the Resident Management System
provided information on issues and challenges for each site. We reviewed electronic project files
provided by AED-S.

To examine the contracting process and project oversight, we met with officials from AED-S. We
reviewed criteria and guidance in the FAR and the AED-S District Level Quality Assurance Plan (DLQAP)
for construction to determine if the contracting process and oversight of the contract met requirements.
Additionally, we reviewed AED guidance to determine the roles and responsibilities for AED personnel.
We reviewed the quality assurance and quality control plans and compared them to DLQAP guidance for
compliance with USACE standards. We reviewed all related quality assurance and quality control
reports supplied by AED-S for adherence with standards. Finally, we reviewed whether three-phase
inspections were conducted for each definable feature of work listed for each project site.

This report is one in a series of SIGAR performance audits focused on reconstruction contract outcomes,
costs, and oversight. We conducted work in Kabul, Spin Boldak, Garm Ser, Takha Pul, Zeheli, Nahri Saraj,
Nad Ali, Forward Operating Base Tombstone, and Kandahar, Afghanistan, from May 2010 to September
2010 in accordance with generally accepted government auditing standards. These standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives. The audit
was conducted by the Office of the Special Inspector General for Afghanistan Reconstruction under the
authority of Public Law No. 110-181, and the Inspector General Act of 1978, as amended.

Use of Computer-Processed Data

We used computer processed data from the USACE’s Resident Management System to determine the
progress and payments made to date for each contract we reviewed. In addition, the Resident
Management System provided information on issues and challenges for each contract. We were unable
to verifiy information in the system with hard-copy contract files because only electronic files exist.



SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                   Page 25
Internal Controls

In conducting the audit, we assessed certain internal controls pertinent to the audit objectives regarding
the administration and oversight of the project. Specifically, we identified and reviewed internal and
management control procedures required by the FAR and the AED-S’s District Level Quality Assurance
Plan for Construction, dated December 15, 2008. We relied on available documents in the contract files
and analyzed these documents to determine if the internal controls for this project were adequate. The
specific results of our review are contained in the body of the report.




SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                    Page 26
APPENDIX II: OVERVIEW OF USACE QUALITY ASSURANCE SYSTEM

USACE’s quality assurance system centers on the district-level quality assurance plan (DLQAP) for
construction that each of USACE’s district offices prepares using a common model. AED-S issued its
DLQAP on December 15, 2008, to mark its creation as a separate district office. Prior to the creation of
AED-S, the plan developed by USACE’s district office in Kabul was in effect. Key oversight requirements
described in these plans include the need for:

     •   Supplemental quality assurance and quality control plans for each construction project prepared
         by USACE and contractor staff, respectively; 22
     •   Quality assurance and quality control reports that are typically prepared on a daily basis by
         USACE and contractor staff;
     •   Quality assurance and quality control testing;
     •   Three-phase inspections conducted by contractor staff and overseen by USACE quality
         assurance staff to ensure that each project’s definable features of work (DFOW) 23 meet all
         statement-of-work and technical requirements. 24 Quality assurance reports, quality control
         reports, and USACE’s Resident Management System database provide the key means for
         determining whether planned oversight actions, as detailed in the supplemental quality
         assurance plans and quality control plans, were implemented.

Each district within the USACE maintains a DLQAP. The DLQAP is a broad-scoped, umbrella plan that
identifies chain of command responsibilities from the District Commander down to the Quality
Assurance Representative. In addition to personnel responsibilities, the DLQAP outlines each quality
assurance measure which the USACE implements such as a general description of definable features of
work, quality assurance reports, quality assurance testing, three-phase inspections, deficiency tracking,
and contractor quality control testing and daily reporting. The DLQAP also defines programmatic
measures associated with the project, which covers submittal procedures, contract administration,
standardized file structure, scheduling, completion, turn-over, and sustainment of projects.

The Supplemental Quality Assurance Plan is a project-specific version of the DLQAP that describes in
detail specific personnel responsibilities, definable features of work, scheduling, and testing.

The Contractor’s Quality Control Plan describes how the contractor will implement a quality control
system to guide construction activities throughout the life of the project. Its main purpose is to ensure
all construction activities comply with the requirements of the scope of work and technical
specifications. The DLQAP says that the USACE resident office must review and approve the quality
control plan before construction work is initiated. The plan should include (1) the contractor’s quality
control organization, (2) personnel listing, (3) details on the submittal process, (4) testing plan, (5) three-

22
   The purpose of a quality assurance system and plans is to verify the effectiveness and accuracy of the
contractor's control over the quality of work required by the contract. The project engineer has the responsibility
for proper implementation of the quality assurance program, which ensures that the quality control system is
effectively serving this purpose.
23
   A DFOW is a task that is separate and distinct from other tasks and has separate control requirements.
24
   Other elements of USACE’s quality assurance system include contractor work order submittals, contractor
invoice submissions, payment requests based on percentage of work completed, contractor performance
assessments, and a “lessons learned” tracking system.



SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                              Page 27
phase inspection plan, (6) details on the construction and design deficiencies tracking system,
(7) reporting procedures, and (8) a list of DFOWs.

As described in the DLQAP, USACE quality assurance representatives should visit the construction sites
as often as practical. Each visit must be documented with a quality assurance report following a
prescribed “checklist” format to ensure that a series of data fields are addressed even if the answer is
“not applicable.” Key data fields that should be addressed include the contractor’s quality control
activities, developments that may lead to a change order, disagreements with the quality control report,
progress of work and the cause/extent of delays, results of quality assurance inspections and testing,
and Quality Assurance Representative (QAR) comments relating to specific DFOWs.

Two of the key quality assurance elements are the list of DFOWs and the associated three-phase
inspection process. The list of DFOWs is generated by USACE as part of the Supplemental QAP. DFOWs
are project specific activities necessary for the proper completion of any given project. The
supplemental QAP for this project identified 42 DFOWs ranging from de-mining activities, to electrical
wiring installation, to road and parking lot construction. For each DFOW, a three-phase inspection is
required to be performed by the contractor and observed by the QAR. The three-phase inspection
process requires that a preparatory, initial, and follow-up phase be performed for each inspection. The
preparatory phase is designed to verify that the contractor is prepared to perform the DFOW. The QAR
ensures that the contractor has the proper equipment, materials, and personnel onsite prior to
commencement. Additionally, he ensures that the contractor understands what the DFOW is and how it
is to be performed. The initial phase consists of the QAR performing an early inspection of the work
completed to ensure that the contractor understood and is properly executing what was discussed in
the preparatory phase. The follow-up phase is an ongoing effort to ensure that the DFOW is performed
properly through completion.

Key elements of USACE oversight are daily quality assurance reports. The DLQAP requires that daily
reports be filed, which identify several key elements of construction activity. The QAR is required to
submit a daily report that includes information such as narratives on the contractor’s quality control
activities, controversial matters, developments that may lead to change orders, disagreements with the
contractor’s daily quality control report, construction activity, visitors who come to the site, and safety
inspection results. These reports are the project engineer’s only link to daily developments on the site.

In addition the daily quality assurance reports, the contractor is required to file daily quality control
reports. These reports should contain information related to the three-phase tests, quality control tests,
and general construction activity. Quality control tests are critical to ensure that the contractor is
complying with the performance terms of the contract and not cutting corners. Tests that verify
concrete slump and compressive strength are particularly crucial when concrete and concrete masonry
units are produced by the contractor on site. Without these tests, it is nearly impossible to verify if a
structure will even remain standing after a seismic event. Additional quality control tests such as water
and gas system pressure tests, to determine if pipes leak, soil density tests, to ensure that settlement of
roads or buildings does not occur, or radiographic weld tests, to ensure that fuel tanks do not fail, are all
critical elements of a good quality control program.




SIGAR Audit-11-3 Contractor Performance and Oversight/Security                                       Page 28
APPENDIX III: COMMENTS FROM U.S. ARMY CORP OF ENGINEERS




SIGAR Audit-11-3 Contractor Performance and Oversight/Security   Page 29
SIGAR Audit-11-3 Contractor Performance and Oversight/Security   Page 30
SIGAR Audit-11-3 Contractor Performance and Oversight/Security   Page 31
SIGAR Audit-11-3 Contractor Performance and Oversight/Security   Page 32
SIGAR Audit-11-3 Contractor Performance and Oversight/Security   Page 33
SIGAR Audit-11-3 Contractor Performance and Oversight/Security   Page 34
SIGAR Audit-11-3 Contractor Performance and Oversight/Security   Page 35
SIGAR Audit-11-3 Contractor Performance and Oversight/Security   Page 36
SIGAR Audit-11-3 Contractor Performance and Oversight/Security   Page 37
SIGAR Audit-11-3 Contractor Performance and Oversight/Security   Page 38
SIGAR Audit-11-3 Contractor Performance and Oversight/Security   Page 39
                 (This report was conducted under the audit project code SIGAR-024A).




SIGAR Audit-11-3 Contractor Performance and Oversight/Security                          Page 40
SIGAR’s Mission               The mission of the Special Inspector General for Afghanistan
                              Reconstruction (SIGAR) is to enhance oversight of programs for
                              the reconstruction of Afghanistan by conducting independent
                              and objective audits, inspections, and investigations on the use
                              of taxpayer dollars and related funds. SIGAR works to provide
                              accurate and balanced information, evaluations, analysis, and
                              recommendations to help the U.S. Congress, U.S. agencies, and
                              other decision-makers to make informed oversight, policy, and
                              funding decisions to:

                                  •   improve effectiveness of the overall reconstruction
                                      strategy and its component programs;
                                  •   improve management and accountability over funds
                                      administered by U.S. and Afghan agencies and their
                                      contractors;
                                  •   improve contracting and contract management
                                      processes;
                                  •   prevent fraud, waste, and abuse; and
                                  •   advance U.S. interests in reconstructing Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to SIGAR’s
Reports and Testimonies       Web site (www.sigar.mil). SIGAR posts all released reports,
                              testimonies, and correspondence on its Web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:

                                  •   Web: www.sigar.mil/fraud
                                  •   Email: hotline@sigar.mil
                                  •   Phone Afghanistan: +93 (0) 700-10-7300
                                  •   Phone DSN Afghanistan 318-237-2575
                                  •   Phone International: +1-866-329-8893
                                  •   Phone DSN International: 312-664-0378
                                  •   U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer

                                  •   Phone: 703-602-8742
                                  •   Email: PublicAffairs@sigar.mil
                                  •   Mail: SIGAR Public Affairs
                                      400 Army Navy Drive
                                      Arlington, VA 22202
